                               CLOSEOUT FOR M90110038



in the Directorate



                                                              -   -
from sub'ect two's             because subject one had, until recently, worked at
J            the f m , with subject two and had collaborated with the second subject while
employed there. The first subject left to start a new company which did work in the same area
as the fm. The complainant reasoned that the first subject had used a proposal written at the
fm as a model for his subsequent proposal submissions.

       OIG found that the second subject had submitted his proposal after the first subject and
was unable to determine which document was the original source of the text in question.
Therefore both individuals were considered subjects of the allegation of plagiarism.

        OIG compared 27 proposals submitted by either of the two subjects to determine the
extent of the copying and to attempt to identify the source proposal. OIG found that all of the
proposals showed a remarkable similarity in overall structure, but that only 9 of these proposals
contain material in common. Six of these proposals were submitted by subject one and three
had been submitted by subject two.

        OIG found 30 blocks of text that had been copied from some of the 9 proposals into
others resulting in a total of 73 blocks of copied text. Some of the 30 blocks had been copied
into several proposals, while others were only copied once. Of the 73 blocks, 39 appeared in
the first subject's proposals and 34 appeared in the second subject's proposals. Some of the
source blocks contained text describing previous research by others, some described standard
methodologies to be used, and still others described the types of experiments to be performed.
Some of the blocks of text were one sentence in length, others were much longer.

        The two subjects responded to OIG's separate requests for information. OIG learned
that, while at the f m , the first subject was the PI on two proposals and several published
articles and that these were the source documents for the copied text appearing in the other
proposals the first subject submitted after leaving the firm. The second subject, who was still
employed by the f m , used this same text in his new proposal submissions to NSF. The second
subject stated that his proposals should have contained an acknowledgment to the first subject;
however, the f m ' s President did not permit such acknowledgments because he viewed the first
subject as a competitor.

         OIG leamed that the f m ' s philosophy, similar to that of other small high-tech f m s , was
to submit as many proposals as possible to t h r o g r a m and that it included recycled text
from declined proposals into new submissions. It is apparently common practice for commercial
institutions to use sections and ideas in one proposal in another proposal even if the PIS on the
proposals are different.


                                            Page 1 of 2
                                                YA -35'
                             CLOSEOUT FOR M90110038
        OIG felvthat two practices were at work in this case. First, a PI does not have to use
citations and indehtations or quotation marks to identify material transcribed from a declined
proposal into &ther proposal or from one published paper to another when both we= sole-
authored by that PI. OIG determined that the first subject was transcribing material from his
own previously submitted proposals and published papers. With regard to the allegation of
plagiarism the fmt subject was not required to provide a citation to his own submissions or
published papers.

        Second, proposals submitted by individuals employed by a fm may contain text that was
originally authored by individuals who are no longer employed by that fm. The text produced
by any one individual is part of the work the individual is paid to do and therefore the property
of the fm and usable by that fm in subsequent submissions which do not include the original
author. OIG accepts that proposal text generated by employees as part of their position may be
the property of the employer and therefore the employer can use that text in subsequent
submissions without obtaining the permission of the original author. The second subject, by
using unattributed text from the fmt subject's proposals written while the latter was an employee
of the fm, had not committed plagiarism.

       OIG concluded there was no substance to the allegation of plagiarism against either
subject and therefore closed this case.




Staff Scientist, Oversight

Concurrence:
                                                  P m a



Donald E. Buzzelli     '
Deputy Assistant Lnspector General for
                                                  J&S    J. ZW&&
                                                  Assistant ~nspectorGeneral for Oversight
Oversight



~ontg'dmer~  K. Fisher
Counsel to the Inspector General

cc:    Signatories
       Inspector General




                                          Page 2 of 2
                                              90- 3
                                                  '
